                             U.S. Department of Agriculture

                                Office of Inspector General
                                            Midwest Region




                 Audit Report

           Chicago SFA’s Accountability and
    Oversight of the NSLP, SBP, and CACFP Supper


.




                                 Report No. 27010-0017-Ch
                                        SEPTEMBER 2004
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                             Midwest Region
                                    111 North Canal Street - Suite 1130
                                         Chicago, IL 60606-7295
DATE:          September 30, 2004

REPY TO
ATTN. OF:      27010-0017-Ch

SUBJECT:       Chicago SFA’s Accountability and Oversight of
               the NSLP, SBP, and CACFP Supper

TO:            Ollice C. Holden
               Regional Administrator
               Food and Nutrition Service
               77 West Jackson Boulevard, 20th Floor
               Chicago, IL 60604

ATTN:          Adele Greco
               Senior Financial Specialist

This report presents the results of our audit of the Chicago SFA’s Accountability and Oversight
of the NSLP, SBP, and CACFP Supper. The Food and Nutrition Service’s response to the
official draft, received September 21, 2004, is included in its entirety as exhibit F, with excerpts
and the Office of Inspector General’s position incorporated into the Findings and
Recommendations section of the report.

Based on the information contained in the responses, we have reached management decisions on
Recommendations Nos. 1 through 7, 9, 10, 11, 14, and 15 in the report. Please follow your
agency’s internal procedures in forwarding documentation for final actions to the Office of the
Chief Financial Officer. We have not reached management decisions on Recommendations
Nos. 8, 12, and 13. Management decisions can be reached when the Food and Nutrition Service
provides the additional information outlined in the OIG Position sections of the report.

In accordance with Department Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken or planned, and the timeframes for implementation for those
recommendations for which a management decision has not yet been reached. Please note that
the regulation requires a management decision to be reached on all findings and
recommendations within a maximum of 6 months from the date of report issuance, and final
action to be taken within 1 year of each management decision.


/S/
EDWARD R. KRIVUS
Regional Inspector General
Executive Summary
Chicago SFA’s Accountability and Oversight of the NSLP, SBP, and CACFP Supper

Results in Brief              This report presents the results of the Office of the Inspector General’s audit
                              of National School Lunch Program (NSLP) operations, as administered by
                              Chicago Public Schools during school year (SY) 2004.1 We also reviewed
                              the Child and Adult Care Food Program (CACFP) At-Risk After-School
                              Supper Program, which the School Food Authority (SFA) began offering in
                              SY 2002. We found that the Chicago SFA needs to strengthen its oversight
                              of meal counting and claiming procedures, the application verification
                              process, and its schools’ compliance with sanitation requirements.

                             At 29 of the 30 schools we visited, food service personnel counted
                             reimbursable lunches and breakfasts for students who did not have the
                             required menu items, did not select a meal, or were absent. From our
                             observations we project that, overall, on any given day of the 182-day school
                             year, the SFA would over-claim 18,320 lunch meals.2 The SFA’s over
                             claims were further verified by our analysis of its filed claims from
                             October 2003 through May 2004, which showed that on average, 160 of its
                             598 claiming schools claimed more than the maximum number of allowable
                             meals. In total, we identified 642,102 meals in excess of those allowable
                             valued at $1,202,090 in Federal funds. (See exhibit C.) The NSLP meal
                             counting and claiming problems we noted went unrecognized and
                             unaddressed because the SFA failed to perform required edit checks to ensure
                             the accuracy of its claims. Of equal concern, the Coordinator On-Site
                             Review staff, which the SFA charged with the key role of evaluating NSLP
                             operations during yearly school visits, did not identify the extent of meal
                             counting and claiming problems.

                             We found a similar meal counting problem with the SFA’s CACFP Supper
                             program. Because the SFA misunderstood program requirements, it allowed
                             its schools to count meals as reimbursable that did not contain all of the five
                             required menu items. Consequently, schools counted more meals than met
                             requirements. Based on statistical projections, the SFA on any given day
                             counted 11,223 non-reimbursable meals worth $24,578 in Federal funds.

                             We also found that the SFA lacked effective pest detection and control
                             measures as well as a comprehensive safety and health plan to ensure that its
                             schools complied with State and local sanitation standards. As a result, meal
                             service operations at over a dozen schools were ordered to shut down by the
                             local streets and sanitation department due to rodent infestations, and meal


1
 SY 2004 operated from July 1, 2003, through June 30, 2004.
2
 We are 95 percent confident that on any given day the SFA would overclaim at least 6,482 meals. The statistical estimate
of 18,320 has a sampling precision of 65 percent. (See exhibit B.)

USDA/OIG-Audit/27010-0017-Ch                                                                                      Page i
                    services at all schools were further disrupted while the SFA implemented an
                    extensive cleaning effort.

                    Finally, we found that the SFA’s application verification results for the NSLP
                    were inaccurate due to flaws in the verification process. The SFA’s
                    verification error rate nearly doubled, from 18 percent to 35 percent, after we
                    independently performed the verification decision process based on the same
                    supporting documents. The verification errors caused the SFA to submit
                    inflated claims for reimbursement and, more significantly, to deny free and
                    reduced-price meals to qualified students.

Recommendations
In Brief            We recommend that FNS require the Illinois State Board of
                    Education (ISBE) to collect excess NSLP reimbursements of $695,335 from
                    the SFA. We also recommend that FNS require the ISBE to provide
                    evidence that the SFA implemented the required edit checks that identified
                    $506,755 in Federal funds to be put to better use. In addition, FNS needs to
                    reconcile the discrepancy in understanding between the State agency and the
                    SFA of the minimum number of items in a reimbursable meal for CACFP
                    Supper program, which led to a projected 11,223 meals (worth $24,578 in
                    Federal funds) being overclaimed on any given serving day.

                    We also recommend that the State agency provide SFA employees with
                    training and instruction to ensure that:

                       •   Food service personnel count and claim only reimbursable meals;
                       •   Coordinator staff correctly perform and document their reviews; and
                       •   Employees who verify student eligibility make correct
                           determinations.

                    Finally, we recommend that the State agency work with the SFA to improve
                    its prevention and detection of sanitation and health issues and to develop a
                    comprehensive health and sanitation plan.

Agency Response     In its response to the official draft, which was dated September 21, 2004,
                    FNS agreed with all of our recommendations. We have incorporated
                    applicable portions of the FNS response, along with our position, within the
                    Findings and Recommendations section of the report. The FNS response is
                    included in its entirety as exhibit F of this audit report.

OIG Position        Based on FNS’ response, we have reached management decisions on
                    Recommendations Nos. 1 through 7, 9, 10, 11, 14, and 15. Management
                    decisions on Recommendations Nos. 8, 12, and 13 can be reached once FNS
                    has provided us with the additional information outlined in the report section,
                    OIG Position.


USDA/OIG-Audit/27010-0017-Ch                                                                Page ii
Abbreviations Used in This Report

ADA         Average Daily Attendance
CACFP       Child and Adult Care Food Program
CBOH        Chicago Board of Health
CPS         Chicago Public Schools
FNS         Food and Nutrition Service
FY          Fiscal Year
HACCP       Hazard Analysis and Critical Control Point
NSLP        National School Lunch Program
OIG         Office of Inspector General
POS         Point of Service
S&S         Chicago Streets and Sanitation Department
SBP         School Breakfast Program
SFA         School Food Authority
Supper      At-Risk After-School Supper Program
SY          School Year
USDA        United States Department of Agriculture




USDA/OIG-Audit/27010-0017-Ch                             Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Meal Counting and Claiming Procedures - NSLP ........................................................ 3

        Finding 1             SFA’s Claims for Reimbursement Exceeded Number of Meals Served ................ 3
                                  Recommendation No. 1.................................................................................... 5
                                  Recommendation No. 2.................................................................................... 6
                                  Recommendation No. 3.................................................................................... 6
                                  Recommendation No. 4.................................................................................... 7
        Finding 2             Schools Counted Meals That Did Not Meet Requirements .................................... 7
                                  Recommendation No. 5.................................................................................... 8
                                  Recommendation No. 6.................................................................................... 9
        Finding 3             Key Management Tool Was Ineffective In Identifying Program Deficiencies....... 9
                                  Recommendation No. 7.................................................................................. 11
                                  Recommendation No. 8.................................................................................. 11

    Section 2. Application Verification Process - NSLP .................................................................... 12

        Finding 4             Application Verification Process Did Not Yield Accurate Results ...................... 12
                                 Recommendation No. 9.................................................................................. 13
                                 Recommendation No. 10................................................................................ 14
                                 Recommendation No. 11................................................................................ 14

    Section 3. Sanitation Requirements............................................................................................... 15

        Finding 5             SFA’s Efforts to Fulfill Sanitation Requirements Were Ineffective ..................... 15
                                 Recommendation No. 12................................................................................ 17
                                 Recommendation No. 13................................................................................ 18

    Section 4. CACFP At-Risk After-School Supper Program......................................................... 19

        Finding 6             SFA Claimed More Reimbursable Suppers Than It Served ................................. 19
                                 Recommendation No. 14................................................................................ 20
                                 Recommendation No. 15................................................................................ 20

Scope and Methodology........................................................................................................................ 21


USDA/OIG-Audit/27010-0017-Ch                                                                                                             Page iv
Exhibit A - SUMMARY OF MONETARY RESULTS..................................................................... 23

Exhibit B - STATISTICAL SAMPLE DESIGN................................................................................ 24

Exhibit C - MEALS CLAIMED IN EXCESS OF THOSE ALLOWABLE ................................... 26

Exhibit D - BREAKFAST AND LUNCH COUNT COMPARISONS ON DAYS OF OUR VISITS
DURING FEBRUARY AND MARCH 2004...................................................................................... 27

Exhibit E - AT-RISK AFTER-SCHOOL SUPPER COUNT COMPARISONS ON DAYS OF
OUR VISITS DURING FEBRUARY AND MARCH 2004.............................................................. 28

Exhibit F - FNS’ RESPONSE TO THE DRAFT REPORT ............................................................. 29




USDA/OIG-Audit/27010-0017-Ch                                                                                    Page v
Background and Objectives
Background                    In 1946, Congress established the National School Lunch Program (NSLP) to
                              safeguard the health and well-being of the Nation’s children and to encourage
                              the domestic consumption of nutritious agricultural commodities.3
                              Administered by the U.S. Department of Agriculture’s (USDA) Food and
                              Nutrition Service (FNS), the NSLP provides funding and donated
                              commodities to the States in order to benefit schools’ nonprofit food service.
                              The Child Nutrition Act of 1966, as amended, established the School
                              Breakfast Program (SBP) as part of the NSLP to provide adequate nutrition
                              for schoolchildren. Beginning in school year 2002, under the Child and
                              Adult Care Food Program (CACFP),4 Illinois schools began offering students
                              a nutritional boost through the At-Risk After-School Supper Program
                              (Supper), also administered by FNS.

                              Under written agreements with FNS, State agencies (typically State
                              Educational Departments) oversee the NSLP, SBP, and Supper and assist
                              school food authorities (SFAs) in operating the programs at the local level.
                              Using FNS funds, State agencies reimburse their SFAs monthly based on the
                              number and type of meals they claim. Although breakfast and lunch meals
                              provided through the NSLP/SBP are available to all students, some students
                              are eligible to receive reduced-price or free meals based on their family’s size
                              and income level. CACFP Suppers are provided free to all participants.

                              The SFA is responsible for every aspect of the NSLP, SBP, and Supper
                              programs. In general, for each of the programs, the SFA must review its
                              schools’ compliance with requirements, develop and implement corrective
                              action plans when problems are identified, and follow up to ensure
                              compliance with program requirements. Besides ensuring that it provides
                              nutritious and well-balanced meals, the SFA must perform edit checks to
                              ensure the reasonableness of its schools’ meal claims and conduct on-site
                              reviews to ensure that schools’ meal claiming and counting systems would
                              yield actual reimbursable meals served to eligible students. The SFA is also
                              responsible for ensuring that food storage, preparation, and service are in
                              accordance with Federal, State, and local sanitation and health standards.
                              The SFA can delegate certain functions, like the student eligibility and
                              application verification processes, to schools, but it maintains overall
                              responsibility for those functions.



3
 The Act is now the Richard B. Russell National School Lunch Act, as amended October 23, 2002.
4
 Section 107(h) of Public Law 105-336 added section 17(r) to the National School Lunch Act to authorize CACFP
reimbursement for meal supplements and suppers provided to children up to the age of 18 in certain after-school programs.
On June 20, 2000, Section 243(i)(3) of Public Law 106-224 added the State of Illinois to the six States previously
authorized to serve reimbursable suppers (Delaware, Michigan, Missouri, New York, Oregon, and Pennsylvania).
USDA/OIG-Audit/27010-0017-Ch                                                                                      Page 1
                    In the context of this audit, the Food Services division of Chicago Public
                    Schools served as the local School Food Authority (SFA), and the Illinois
                    State Board of Education served as the State agency. In FY 2003, the State
                    agency received $257 million in Federal reimbursements for 217 million
                    NSLP and SBP meals, of which the Chicago SFA received $133 million for
                    72 million meals claimed by its 598 schools. For the same year, the State
                    agency received about $13 million in reimbursements for 6.3 million supper
                    meals, of which the Chicago SFA received $2.9 million for about 1.4 million
                    suppers claimed.

Objectives          The objectives of this audit were to evaluate the Chicago SFA’s controls over
                    the administration of the NSLP, SBP, and After-School Supper Programs.
                    As part of our review of the SFA’s administration, we performed tests of the
                    SFA’s sanitation procedures and compliance with Federal sanitation
                    regulations. We evaluated the SFA’s policies and procedures over meal
                    accountability, the student eligibility process, and agency oversight of
                    program operations. Specifically, we reviewed its controls for ensuring the
                    accuracy of counting and claiming reimbursable meals, the proper accounting
                    and use of program funds relating to Food Services’ procurement of goods
                    and services, and the overall student eligibility process.




USDA/OIG-Audit/27010-0017-Ch                                                              Page 2
Findings and Recommendations
Section 1. Meal Counting and Claiming Procedures - NSLP

                              Over a four-month period, the SFA claimed reimbursement for lunches and
                              breakfasts its schools did not serve or that did not meet NSLP requirements.
                              We determined that 29 of the 30 schools in our observations did not submit
                              correct claims, resulting in a net overclaim of over 5 percent for both meals.5
                              We statistically project that the overclaims amounted to 18,320 lunches on
                              any given serving day of the 182-day school year.6 (See exhibit B.) In
                              addition, more than 25 percent of the SFA’s 598 claiming schools did not
                              provide accurate meal claims. Schools submitted inflated meal claims
                              because the SFA failed to provide sufficient oversight of meal counting and
                              claiming procedures.


Finding 1                     SFA’s Claims for Reimbursement Exceeded Number of Meals
                              Served

                              On average, 160 of the SFA’s 598 schools’ (27 percent) monthly claims
                              included more meals than the maximum number of allowable meals between
                              October 2003 and May 2004. Based on our observations and discussions, we
                              determined that food service personnel at the point of service (POS) collected
                              and counted tickets for meals that were not served, either because a child was
                              absent or was not eating on that day. These counting problems continued to
                              go unrecognized and unaddressed because the SFA did not perform required
                              edit checks to determine the reason for its schools’ overclaims. If edit checks
                              were implemented, the SFA would have identified 642,102 meals in excess
                              of those allowable valued at $1,202,090 in Federal funds. (See exhibit C.)

                              Federal regulations7 require SFAs to ensure that claims for reimbursement
                              accurately reflect the number of meals served to eligible children. Prior to
                              submitting a school’s claim, the SFA must perform three edit checks, which
                              include a comparison of: (1) the number of eligible students to the daily
                              claim, (2) the number of eligible students times an average daily attendance
                              factor to the daily claim, and (3) the maximum allowable meals to total meals
                              claimed for the month. Based on the results of edit checks 1 and 3, the SFA
                              must reduce its claim by those amounts; for edit check 2, the SFA must have
                              a method to identify and implement corrective action and follow up with
                              schools that continually submit inflated claims.

5
  Inaccurate claims were submitted by 25 of the 26 schools that served breakfast and 29 of the 30 schools that served lunch.
(See exhibit D.)
6
  We were unable to project the number of overclaimed breakfasts for all 598 schools.
7
  7 CFR 210.8

USDA/OIG-Audit/27010-0017-Ch                                                                                        Page 3
                               Because the SFA did not perform all required edit checks in SY 2004 and
                               performed them inconsistently in prior years, it did not identify improper
                               meal counting practices at its schools. According to SFA procedures,8 food
                               service personnel are not to collect a ticket from a student unless that student
                               receives a reimbursable meal. However, during our site visits we observed
                               teachers handing a stack of tickets to food service personnel at the POS,
                               without the POS designee verifying those tickets represented students
                               actually in attendance. We also observed food service employees collecting
                               tickets from students not eating the school-prepared lunch that day.

                               In addition to our observations, we reviewed the SFA’s claims for
                               reimbursement utilizing the three required edit checks. For the month of
                               January 2004, the first edit check comparing the number of eligible students
                               to the daily claim showed that 6 of the 30 schools we tested had claimed
                               more meals than the number of eligible students. We discussed these
                               overclaims with SFA officials, who agreed to retroactively apply the first edit
                               check for all schools and months starting with October 2003. If edit
                               check 1 had been in place from October 2003 through May 2004, the SFA
                               would have had to limit its claim by 316,714 meals worth $528,591 in
                               Federal funds. In fact, the SFA did not implement edit check 1 for its claims
                               submitted from October 2003 through January 2004, and therefore
                               overclaimed 226,137 meals worth $348,189 in Federal funds.                (See
                               exhibit C.)

                               Although the SFA reduced its claim significantly based on the first edit
                               check, our application of edit check 3 on the SFA’s revised claim for January
                               2004 revealed additional overclaims. The third edit check disclosed that 9 of
                               the 30 schools we tested still exceeded the maximum allowable meals per
                               month by over 3,000 meals. We then applied edit check 3 to each month’s
                               revised claim amounts for the period of October 2003 through May 2004.
                               We calculated that, on average, 160 of the 598 schools’ monthly claims
                               exceeded their maximum number of allowable meals by 325,388 meals worth
                               $673,499 in Federal funds. However, since the SFA did not implement edit
                               check 3 until the February 2004 claim, it overclaimed 171,420 meals worth
                               $347,146 in Federal funds. (See exhibit C.)

                               We also reviewed the SFA’s claim for January 2004 using the second edit
                               check, which compares the number of eligible students times an average
                               daily attendance factor to the daily claim. We determined that 22 of the
                               30 schools we tested claimed meals that exceeded their number of adjusted
                               eligible students. Further analysis showed that 12 of those 22 schools
                               submitted overclaims for at least half of the serving days, and 4 schools over-
                               claimed every day of the month. Although the SFA was not required to
                               reduce its claim based on the results of this edit check, it was required to

8
    Food Services and Warehousing-Principal’s Survival Guide 2003-2004, Lunch Accountability p.33.
USDA/OIG-Audit/27010-0017-Ch                                                                            Page 4
                    implement corrective action and follow up with schools to determine the
                    reason for their overclaims. The SFA neither identified its schools’ excess
                    claims nor took action to correct meal counting and claiming problems.

                    During its administrative review in SY 2000, the State cited the SFA for not
                    having edit checks in place. Due to the SFA’s lack of cooperation in
                    implementing the edit checks, FNS required the State to withhold over
                    $9 million in reimbursements in SYs 2001 and 2002 until they were
                    implemented. The SFA reported that it had implemented the three required
                    edit checks in December 2001, and the State released the held funds.
                    However, we determined that the SFA did not implement the edit checks for all
                    of SYs 2003 and 2004. Although we determined that the SFA implemented
                    edit checks 2 and 3 during SY 2003 and for the month of September 2003, it
                    discontinued those edit checks in October 2003. SFA officials said that their
                    efforts to follow up with the schools failed due to the schools’ lack of
                    cooperation, insufficient staffing, and limited time frames.

                    In total, from October 2003 through May 2004, the schools’ initial claims had
                    to be adjusted by 642,102 meals worth $1,202,090 in Federal funds.
                    Although the SFA initially overclaimed meals worth $695,335 in Federal
                    funds, it did submit lower revised claims to the State agency for
                    October 2003 through January 2004. However, the SFA’s implementation of
                    edit checks 1 and 3 from February through May 2004 prevented the SFA
                    from initially submitting an overclaim of $506,755 in Federal funds. With
                    the SFA’s claims of over $100 million per year, edit checks must remain in
                    place to ensure accurate claims and proper use of Federal funds.

Recommendation No. 1

                    Require the State agency to collect $695,335 in excess reimbursements from
                    the SFA’s claims from October 2003 through January 2004.

                    Agency Response.

                    In its response, dated September 21, 2004, FNS agreed with our
                    recommendation and provided a bill for collection to the State agency. On
                    October 15, 2004, the State agency will submit a request for payment to the
                    SFA for $695,335 in excess reimbursements. Prior to December 31, 2004 the
                    State agency must remit those funds to FNS.

                    OIG Position.

                    We accept FNS’ management decision. For Final Action, provide to the
                    OCFO the documentation necessary to prove that payment was received.



USDA/OIG-Audit/27010-0017-Ch                                                              Page 5
Recommendation No. 2

                    Require the State agency to provide evidence of its review of the SFA’s
                    proper implementation of edit checks 1 and 3 for its claims submitted for
                    February through May 2004 to ensure it includes $506,755 in revisions made
                    of its schools’ initial claims.

                    Agency Response.

                    In its response, dated September 21, 2004, FNS agreed with our
                    recommendation and the State agency will ensure the SFA revised its claim
                    downward by $506,755 in Federal funds. Prior to December 31, 2004 the
                    State agency will review the SFA’s claims for February through May 2004 to
                    verify that claim revisions were completed, and by August 1, 2005, provide
                    FNS with the results of that verification process.

                    OIG Position.

                    We accept FNS’ management decision. For Final Action, FNS needs to
                    provide the OCFO with evidence of the State agency’s claim review and that
                    the SFA’s claim was reduced by $506,755 in Federal funds.

Recommendation No. 3

                    Require the State agency to ensure that the SFA implements edit check 2 and
                    a method to correct and follow up with schools that submit inflated claims.

                    Agency Response.

                    In its response, dated September 21, 2004, FNS agreed with our
                    recommendation and the State agency will contact the SFA to obtain and
                    review its written procedures for edit check 2 and verify that the SFA has an
                    appropriate process to follow up with schools that submit inflated meal
                    counts. In addition, during the FY 2005 Coordinate Review Effort cycle, but
                    no later than August 1, 2005, the State agency will verify that the SFA
                    implemented edit check 2 and is following its written procedures to ensure
                    schools that submit inflated meal counts are reviewed and that the counts
                    submitted by the schools are accurate.

                    OIG Position.

                    We accept FNS’ management decision. For Final Action, FNS needs to
                    provide the OCFO with documentation that supports the SFA’s
                    implementation of edit check 2 and that the SFA is following those
                    procedures.

USDA/OIG-Audit/27010-0017-Ch                                                              Page 6
Recommendation No. 4

                              Require the State agency to ensure that the SFA provides guidance to school
                              officials on the responsibilities of POS personnel to ensure they count only
                              meals served to students in attendance.

                              Agency Response.

                              In its response, dated September 21, 2004, FNS agreed with our
                              recommendation and the State agency will require the SFA to review and
                              amend its current guidance and procedures on the responsibilities of POS
                              personnel to ensure only reimbursable meals are counted. In addition, no
                              later than December 31, 2004, the State agency will require the SFA to
                              disseminate the amended POS procedures to school officials and the State
                              agency.

                              OIG Position.

                              We accept FNS’ management decision. For Final Action, FNS needs to
                              provide the OCFO with evidence of the amended POS procedures and the
                              distribution of those procedures to school officials.




    Finding 2                 Schools Counted Meals That Did Not Meet Requirements

                              Food service personnel at 18 of 26 schools we visited counted breakfasts that
                              did not include all required meal components, while 21 of 30 schools counted
                              lunches that did not include all required components.9 Schools counted and
                              subsequently claimed non-reimbursable meals because POS employees were
                              sometimes distracted during the meal service and SFA policy was not clear
                              on how to process a ticket for a non-reimbursable meal.

                              The SFA is required to base claims for reimbursement on meal counts taken
                              at the POS, which is the point in the food service operation where food
                              service officials should accurately determine whether a reimbursable,10 free,
                              reduced-price, or paid lunch has been served to an eligible child.

                              Our observations disclosed that, generally, food service officials at the POS
                              did not ensure that they collected tickets only from students who had the

9
  All 30 schools in our sample served lunch, while only 26 of the 30 served breakfast.
10
   A reimbursable breakfast meal under the nutrient standard menu (NU-Menu) planning approach and the offer versus
serve provision requires a school to offer at least three menu items, and a student may decline a maximum of one menu
item. For a reimbursable lunch under NU-Menu, offer versus serve, every student must take the entrée and at least two
other items since every school we visited offered at least five menu items.
USDA/OIG-Audit/27010-0017-Ch                                                                                     Page 7
                    required menu items for a reimbursable meal. In some cases the person
                    collecting tickets was distracted from observing each meal, which allowed
                    students to pass by without anyone determining whether the meal met
                    requirements. Similarly, we observed instances where the POS designee left
                    the end of the line to replenish food items or to accept a delivery. During the
                    POS designee’s distraction or absence, students would place their tickets on a
                    counter or on a stack of other tickets, which the lunchroom manager would
                    later count for reimbursement.

                    In addition, the SFA’s procedures did not clearly delineate what the POS
                    designee should do with a meal ticket if a student has not selected all required
                    menu items. The procedures state that a ticket is to be collected from each
                    student that has a reimbursable meal, but contain no additional instructions
                    on what the POS designee should do if the student decides not to eat or does
                    not select the required number of menu items. When asked what would
                    happen if a student did not have enough items for a reimbursable meal or was
                    not eating, POS designees told us that they would place the student’s ticket to
                    the side and not count it. However, we observed that POS designees placed
                    tickets to the side infrequently.

                    We concluded that the SFA needs to tighten its controls by providing
                    additional training and clear written instructions for POS designees to help
                    prevent the claiming errors we observed.

Recommendation No. 5

                    Require the State agency to ensure that the SFA instructs the POS designee to
                    observe every meal in order to correctly determine if it contains the required
                    menu items for reimbursement.

                    Agency Response.

                    In its response, dated September 21, 2004, FNS agreed with our
                    recommendation and the State agency will require the SFA to review and
                    amend its current guidance and procedures on the responsibilities of POS
                    personnel to ensure they observe every meal to determine if it contains the
                    required items for reimbursement. In addition, by December 31, 2004, the
                    State agency will require the SFA to disseminate the amended POS
                    procedures and provide training to school officials.

                    OIG Position.

                    We accept FNS’ management decision. For Final Action, FNS needs to
                    provide the OCFO with evidence in support of the amended POS procedures
                    and the training provided to school officials.

USDA/OIG-Audit/27010-0017-Ch                                                                 Page 8
Recommendation No. 6

                       Require the State agency to ensure that the SFA amends its procedures to
                       include how to process tickets for students not eating or who do not select
                       enough menu items for a reimbursable meal.

                       Agency Response.

                       In its response, dated September 21, 2004, FNS agreed with our
                       recommendation and the State agency will require the SFA to review and
                       amend its current guidance and procedures on how to properly process tickets
                       for children not eating or who do not select enough menu items for a
                       reimbursable meal. In addition, by December 31, 2004, the State agency will
                       require the SFA to disseminate the amended POS procedures and provide
                       training to school officials.

                       OIG Position.

                       We accept FNS’ management decision. For Final Action, FNS needs to
                       provide the OCFO with evidence in support of the amended POS procedures
                       and the training provided to school officials.




 Finding 3             Key Management Tool Was Ineffective In Identifying Program
                       Deficiencies

                       The SFA’s Coordinator On-Site Reviews did not effectively identify schools
                       that were out of compliance with program requirements. The monitoring
                       process was ineffective because the SFA did not ensure that its Coordinators
                       documented all instances of noncompliance at schools, nor did it
                       independently verify the results of the Coordinators’ reviews. As a result, the
                       SFA failed to identify the extent of meal counting and claiming problems at
                       its schools and did not take action to bring them into compliance with
                       program requirements.

                       Although SFA Coordinators prepared the review forms, the procedures
                       applied did not provide adequate assurance that the internal controls ensured
                       a school’s claim was for the actual number of reimbursable meals. Federal
                       regulations11 require SFAs to perform certain program oversight functions,
                       including conducting an on-site review of the lunch count and claiming
                       system employed by each school by February 1 of each year. To fulfill this
                       requirement, the Chicago SFA’s 14 Coordinators visit all 598 schools that

11
     7 CFR 210.8 (a)
USDA/OIG-Audit/27010-0017-Ch                                                                   Page 9
                                 submit meal claims and document the results of their visits on the
                                 Compliance On-Site Review form.

                                 At the majority of the schools we visited, our observations did not match the
                                 Coordinators’ reported assessment of the schools’ meal counting and
                                 claiming systems. We observed all breakfast12 and lunch meal services at the
                                 30 statistically selected schools to determine whether meal counts were based
                                 on reimbursable meals served to eligible students, and if the meal count
                                 system provided an accurate total. We found that 24 of the 30 schools
                                 claimed meals that did not contain the required components (see Finding 2),
                                 but the Coordinators documented the same problem at only 1 of the
                                 30 schools during their SY 2004 review. We also observed food service
                                 officials at eight schools that collected tickets for students who were absent
                                 or who did not eat the prepared meal that day. (See Finding 1.)

                                 Overall, the Coordinators’ on-site review results documented meal count
                                 problems at just 6 of the 30 schools we visited, while we determined that
                                 25 schools’ breakfast counts and 29 schools’ lunch counts were in error. We
                                 also determined that the corrective actions recommended by the Coordinators
                                 were ineffective, since the six schools they documented with meal count
                                 problems still counted a different number of meals than we did on the day of
                                 our visit. In fact, 3 of those schools each counted between 40 and 158 meals
                                 more than we counted.

                                 We further determined that even if the school site visits had been adequately
                                 documented, the review process itself would not have identified or prevented
                                 the inclusion of non-reimbursable meals. During the review, a Coordinator
                                 simply watches school food service personnel count tickets, without
                                 evaluating whether the ticket represents a reimbursable meal. In order to
                                 evaluate the effectiveness of a school’s meal count system, the Coordinator
                                 must first ensure that tickets are only collected for reimbursable meals.

                                 Although SFA management relied on its Coordinators to identify serious issues
                                 with its schools’ meal counting and claiming systems, the SFA did not
                                 independently verify the Coordinators’ results. As described in Finding 1, the
                                 SFA did not have edit checks in place for the 30 schools we visited, and
                                 therefore was not aware that 22 of those schools submitted inflated claims.
                                 Comparing the results of the Coordinators’ on-site reviews to other
                                 independent monitoring results would have given SFA management a more
                                 accurate portrayal of its schools’ counting, claiming, and other program-related
                                 issues.




12
     Our sample of 30 schools included 26 schools that served breakfast.
USDA/OIG-Audit/27010-0017-Ch                                                                            Page 10
Recommendation No. 7

                    Require the State agency to work with the SFA in developing adequate
                    review procedures and training the Coordinator staff to correctly perform and
                    document their reviews.

                    Agency Response.

                    In its response, dated September 21, 2004, FNS agreed with our
                    recommendation and the State agency will require the SFA to develop
                    adequate review procedures. In addition, the State agency will require the
                    SFA to provide training, by no later than December 31, 2004, on the revised
                    review procedures to its Coordinator staff on how to correctly perform and
                    document their reviews.

                    OIG Position.

                    We accept FNS’ management decision. For Final Action, FNS needs to
                    provide the OCFO with evidence of the review procedures and the training
                    provided to the SFA’s Coordinator staff.

Recommendation No. 8

                    Require the State agency to ensure that the SFA implements independent
                    verifications to validate the Coordinators’ on-site review results.

                    Agency Response.

                    In its response, dated September 21, 2004, FNS agreed with our
                    recommendation and the State agency will require the SFA to develop a
                    process, procedure, and/or guidance as a management review to validate the
                    results of the Coordinator’s on-site reviews. By December 31, 2004, the
                    State agency will require the SFA to provide those procedures to the State
                    agency.

                    OIG Position.

                    In order to reach management decision, in addition to the development of
                    new procedures, FNS needs to provide us with a response that describes the
                    State agency’s plan to verify SFA implementation of verifications to validate
                    the Coordinators’ on-site review results. For example, the SFA could
                    consider adding this task to its FY 2005 Coordinated Review Effort, similar
                    to its intentions to verify SFA corrective actions as stated in its response to
                    Recommendation No. 3.



USDA/OIG-Audit/27010-0017-Ch                                                              Page 11
Section 2. Application Verification Process - NSLP




Finding 4                      Application Verification Process Did Not Yield Accurate Results

                                The SFA’s application verification error rate13 nearly doubled, increasing
                                from 18 percent to 35 percent, after we independently performed the
                                verification decision process based on the same supporting documents. We
                                determined that more than half of the 30 schools we reviewed incorrectly
                                verified applications because of miscalculations by the verification designees
                                or because the schools did not request or obtain sufficient evidence to verify
                                income eligibility. As a result, students were either incorrectly categorized
                                as being eligible for free or reduced-price meals when they were not, or
                                denied when, in fact, they were eligible.

                               Schools are required to confirm student eligibility for free and reduced-price
                               meals through the verification process. For a sample of applications schools
                               request students’ households to submit income information for the most
                               recent full month available.14

                               Our review of 30 schools’ application verification results disclosed that
                               application designees made calculation errors or did not obtain sufficient
                               income information to verify the applications. We independently performed
                               the verification decision process using the same documentation and
                               determined that, although the schools changed the status of 28 of the
                               157 applications selected for verification (18 percent), 55 of the
                               157 applications (35 percent) should have changed status. A change in a
                               student’s status occurs when the income information does not support the
                               student’s current eligibility, requiring re-classification to the free, reduced-
                               priced, or denied category.

                               We determined that application designees correctly changed the status of
                               19 of the 55 applications, but they did not correctly verify the remaining
                               36 applications. For those 36 applications, 29 were not changed correctly
                               due to designee error, and 7 were due to insufficient income information.
                               Some of the designee errors included using net instead of gross income. In
                               other instances, income information provided by parents was insufficient to
                               make a correct determination. For example, one parent provided a paycheck
                               stub written in a foreign language and paid in foreign currency.
13
   Although error rate is not specifically defined in program regulations, we define it as the number of student applications
that changed status after the verification process was performed, divided by the total number of applications selected for
verification.
14
   (7 CFR 245.6a (a)(1))
USDA/OIG-Audit/27010-0017-Ch                                                                                         Page 12
                    The eligibility verification errors caused the SFA to submit inflated claims
                    for reimbursement and more importantly, denied benefits to qualified
                    students. We determined that 26 students were classified as eligible for free
                    or reduced-price meals, even though the parent’s income information did not
                    support that classification. Therefore, for every meal claimed for those
                    students, the SFA received greater reimbursement than if that student had
                    been correctly classified. Conversely, we determined that five students were
                    denied eligibility when, in fact, the parent’s income information supported
                    reduced-price or free meal benefits. Denying an eligible student free or
                    reduced-price benefits requires the student to pay the full cost of the meal
                    even though the student’s parents met income guidelines set according to the
                    poverty threshold level.

                    Although the SFA collected all verification results, it neither adequately
                    reviewed them for accuracy nor compiled SFA-wide statistics. Although
                    documenting and reporting SFA-wide error rates is not currently required,
                    starting in school year 2005 the SFA will be required to provide its annual
                    application verification results to the State agency. Since the new
                    requirements will increase the SFA’s responsibility to collect and report
                    verification results, it must develop a plan to ensure the timeliness and
                    accuracy of application verification data. To improve the application
                    verification process, the SFA needs to provide clear instructions to parents on
                    what documentation is needed, and training for its schools’ application
                    designees on making correct eligibility determinations.

Recommendation No. 9

                    Require the State agency to ensure that the SFA requests adequate
                    documentation from parents to make accurate eligibility determinations.

                    Agency Response.

                    In its response, dated September 21, 2004, FNS agreed with our
                    recommendation and the State agency will require the SFA to review and
                    update its procedures to ensure adequate documentation is received from
                    parents in order to make accurate eligibility determinations. The State
                    agency will also require, by December 31, 2004, the SFA to disseminate and
                    train its staff on the updated procedures.

                    OIG Position.

                    We accept FNS’ management decision. For Final Action, FNS needs to
                    provide the OCFO with evidence of the updated eligibility procedures and the
                    training provided to the SFA’s staff.



USDA/OIG-Audit/27010-0017-Ch                                                              Page 13
Recommendation No. 10

                    Require the State agency to ensure that the SFA provides documentation of
                    the training it will provide its application verification designees on the
                    requirements for making correct eligibility determinations.

                    Agency Response.

                    In its response, dated September 21, 2004, FNS agreed with our
                    recommendation and the State agency will require the SFA to review and
                    update its procedures to ensure correct eligibility determinations are made.
                    The State agency will also require, by December 31, 2004, the SFA to
                    disseminate and train its staff on the updated procedures.

                    OIG Position.

                    We accept FNS’ management decision. For Final Action, FNS needs to
                    provide the OCFO with evidence of the updated eligibility procedures and the
                    training provided to the SFA’s staff.

Recommendation No. 11

                    Require the State agency to ensure that the SFA provides documentation of
                    its plan to collect and review application verification results for accuracy,
                    including amending errors, prior to forwarding this data to the State.

                    Agency Response.

                    In its response, dated September 21, 2004, FNS agreed with our
                    recommendation and the State agency will require the SFA to develop a plan
                    and procedures to collect and review application verification results for
                    accuracy. In addition, by December 24, 2004, the State agency will require
                    the SFA to provide its plan and procedures to the State agency.

                    OIG Position.

                    We accept FNS’ management decision. For Final Action, FNS needs to
                    provide the OCFO with the SFA’s plan and procedures that ensure
                    application verification results are accurate.




USDA/OIG-Audit/27010-0017-Ch                                                             Page 14
Section 3. Sanitation Requirements




Finding 5                      SFA’s Efforts to Fulfill Sanitation Requirements Were Ineffective

                               The SFA’s food service areas did not comply with State and local sanitation
                               and health standards, resulting in food service operations at over a dozen
                               schools being shut down due to rodent infestations during SY 2004. This
                               occurred because the SFA’s pest prevention and detection procedures were
                               ineffective. The SFA also lacked a comprehensive sanitation and health plan
                               and effective communication with the SFA division responsible for pest
                               control.

                               Federal,15 State,16 and local laws and regulations require that SFAs take
                               effective measures to minimize the presence of rodents.17 The SFA’s efforts
                               to meet these requirements included three pest detection measures and one
                               pest prevention measure. The three detection procedures included the Food
                               Services division’s Coordinator On-Site Reviews, inspections by the Chicago
                               Board of Health (CBOH), and the SFA’s own Hazard Analysis and Critical
                               Control Point (HACCP) reviews. Pest prevention was the responsibility of
                               the SFA’s Asset Management division. However, the SFA’s measures were
                               ineffective in preventing the closure of 13 schools’ food service operations.

                               Both the SFA Coordinators and the CBOH substantially failed to identify the
                               schools’ rodent infestation problems.            During the months of
                               December 2003 and January 2004, the Chicago Streets and Sanitation
                               Department (S&S) inspected 24 schools’ food service operations, failing
                               18 schools and shutting down food service at 13 of those. We compared the
                               results of the Coordinator reviews and CBOH inspections to the S&S
                               inspection results. We determined that 9 of the 24 schools failed the S&S
                               review but received passing grades from both the CBOH and the SFA
                               Coordinators. Furthermore, at 3 of the 9 schools, the SFA’s Coordinators
                               gave the schools a passing grade on sanitation within weeks of S&S shutting
                               down the schools’ meal service operations.

                               Although the S&S inspection procedures, which included moving kitchen
                               equipment and searching remote areas, were more extensive than the SFA
                               reviews, some evidence of rodents was in plain sight. OIG noted rodent
                               droppings at 3 of 30 schools we statistically selected for site visits. At two

15
   7 CFR 210.13
16
   Public Health 410 ILCS 650
17
   Title 77, Chapter 1, Part 750
USDA/OIG-Audit/27010-0017-Ch                                                                        Page 15
                    schools, the rodent droppings were found in the teacher’s lounge adjacent to
                    the food service area. At another school, rodent droppings were actually in
                    the lunchroom service area.

                    During SY 2003, the SFA’s Food Services division utilized a third pest
                    detection procedure, called the HACCP review, and compiled the results in
                    October 2003. The HACCP review included site visits to all SFA schools
                    where the Coordinators rated overall sanitation, and particularly pest control,
                    from good to unsatisfactory. However, similar to the SFA’s other pest
                    detection procedures it did not prevent the closing of its schools’ food
                    service. The SFA’s HACCP reviews rated 13 of the 18 schools that failed the
                    S&S inspections due to rodent infestations, as good or fair in terms of overall
                    sanitation. Conversely, the SFA’s HACCP review rated over 175 schools’
                    pest control as poor or unsatisfactory, and yet no effective action was taken to
                    prevent a school’s food service from being shutdown. As an example, the
                    SFA rated one high school’s pest control as poor and unsatisfactory in
                    September 2002, and yet that school’s food service continued serving
                    students until S&S ordered it to cease and desist in December 2003.
                    Although the HACCP reviews assisted the SFA in identifying sanitation
                    issues at its schools, the SFA did not provide evidence of a comprehensive
                    plan to prevent schools’ food services from being shutdown due to rodent
                    infestation.

                    The SFA’s pest prevention measure also failed because of a lack of
                    communication between two of its divisions. According to an SFA official
                    from the Food Services division, she relied on the SFA’s Assets Management
                    division to handle pest control and prevention and other facilities
                    management issues. For SY 2004, the Assets Management division had
                    contracts with three facilities management companies and eight pest control
                    companies to cover all of the SFA’s schools. The contracts required pest
                    control monitoring logs and reports to be delivered to Asset Management.
                    However, a Food Service official said she was unaware that the pest control
                    logs existed.

                    As a result of the recent S&S closures, the SFA adopted the Keeping Our
                    Schools Clean initiative, closing 100 schools at a time for thorough cleaning.
                    According to SFA officials, they will repeat the initiative during SY 2005.
                    However, the SFA has not yet developed procedures that would eliminate
                    sanitation issues as they arise or that coordinate with the SFA’s Asset
                    Management division. Without a coordinated action plan to immediately
                    respond to unscheduled events, the SFA has less assurance that it will be able
                    to prevent another widespread occurrence of sanitation and health issues next
                    year.

                    Furthermore, although the SFA had implemented different pest detection and
                    prevention procedures, it did not provide evidence that it had a
USDA/OIG-Audit/27010-0017-Ch                                                               Page 16
                    comprehensive health and sanitation plan. When FNS regional officials
                    requested a copy of the SFA’s health and sanitation plan, the SFA submitted
                    a slightly modified version of the checklist it used for its HACCP inspections.
                    However, the SFA did not have procedures on the frequency of HACCP
                    inspections, implementing corrective actions, and how they would determine
                    the effectiveness of those actions. While the HACCP review checklist should
                    be part of a comprehensive plan, greater coordination is needed. The
                    development of a comprehensive health and sanitation plan for about
                    600 schools, particularly to prevent and detect rodent infestations, requires
                    the cooperation of State and local health agencies as well as effective
                    communication between SFA divisions.

Recommendation No. 12

                    Require the State agency to work with the SFA to improve its prevention and
                    detection of sanitation and health problems.

                    Agency Response.

                    In its response, dated September 21, 2004, FNS agreed with our
                    recommendation and the State agency will, by October 15, 2004, (1) inform
                    the SFA that they need to improve their prevention and detection of
                    sanitation and health problems per the OIG report, (2) require the SFA to
                    work in conjunction with State and local health agencies and the various SFA
                    divisions to improve their prevention and detection of sanitation and health
                    problems, and (3) require the SFA to provide, by March 1, 2005, the State
                    agency a copy of all plans and procedures. However, determination of the
                    effectiveness of the plans and procedures will remain under the authority of
                    the SFA’s local health authorities.

                    OIG Position.

                    In order to reach management decision, FNS needs to provide us with a
                    response that describes the State agency’s plan, including timeframes for
                    implementation, in providing the SFA assistance in improving its prevention
                    and detection of sanitation and health problems. In addition, FNS needs to
                    provide us with the State agency’s procedures for reviewing and assessing the
                    SFA’s pest detection and prevention process.




USDA/OIG-Audit/27010-0017-Ch                                                              Page 17
Recommendation No. 13

                    Require the State agency to ensure that the SFA develops and implements a
                    comprehensive health and sanitation plan, which includes coordination and
                    communication between its divisions, to ensure compliance with all Federal,
                    State, and local health and safety codes.

                    Agency Response.

                    In its response, dated September 21, 2004, FNS agreed with our
                    recommendation and the State agency will (1) inform the SFA that they need
                    to implement a comprehensive health and sanitation plan per the OIG report,
                    (2) require the SFA to work in conjunction with State and local health
                    agencies and the various SFA divisions to develop and implement a
                    comprehensive health and sanitation plan that is in compliance with all
                    Federal, State, and local health and safety codes and that ensures there is
                    coordination and communication between SFA divisions and appropriate
                    health agencies, and (3) require the SFA to provide the State agency a copy
                    of all plans and procedures by May 1, 2005. However, determination of the
                    effectiveness of the plans and procedures will remain under the authority of
                    the SFA’s local health authorities.

                    OIG Position.

                    In order to reach management decision, FNS needs to provide us with a
                    response that details the timeframes for the SFA’s implementation of a
                    comprehensive health and sanitation plan. In addition, FNS needs to provide
                    us with the State agency’s methodology in monitoring the SFA’s
                    implementation of its health and sanitation plan.




USDA/OIG-Audit/27010-0017-Ch                                                            Page 18
Section 4. CACFP At-Risk After-School Supper Program




Finding 6                     SFA Claimed More Reimbursable Suppers Than It Served

                              The SFA incorrectly implemented the CACFP At-Risk After-School Supper
                              Program (Supper) by allowing its schools to use the offer versus serve
                              provision for Supper meals. As a result, participating schools counted meals
                              that did not contain all of the required components of a reimbursable meal.
                              We statistically project that, on any given serving day, the SFA’s schools
                              counted 11,223 non-reimbursable meals worth $24,578 in Federal funds.
                              (See exhibits B and C.)

                              Federal regulations18 require schools serving Supper to use a meal pattern
                              that includes five items: a milk, a meat or meat alternative, two or more
                              vegetables and/or fruits, and a bread or bread alternative. Federal regulations
                              for Supper do not authorize schools to use the offer versus serve provision,
                              which allows a student to take just three of the five required meal
                              components. Both the FNS website and a State agency fact sheet for Supper
                              specify that a student must receive all five food items for the meal to be
                              counted as a complete, reimbursable supper.

                              The SFA’s procedures contradicted Federal and State requirements by
                              allowing students to decline Supper meal components under offer versus
                              serve. Although the SFA’s procedures require schools to offer all five items,
                              they define a reimbursable Supper meal as one that contains at least 3 menu
                              items.    Our observations of Supper services at 14 of the SFA’s
                              218 participating schools showed that all food service personnel followed the
                              SFA’s erroneous procedures by applying the offer versus serve provision.
                              Whereas the schools counted a total of 1,493 reimbursable meals, we counted
                              839 meals that included all of the required components. (See exhibit E.)

                              The SFA improperly instructed its staff on what constitutes a reimbursable
                              meal under Supper because it misunderstood program requirements.
                              According to an SFA official, the State agency and the SFA agreed that,
                              while the menu-planning approaches for the NSLP and Supper were
                              different, both programs allowed the offer versus serve provision. The same
                              SFA official stated that the State agency never mentioned that offer versus
                              serve was not allowable when the SFA submitted its application to participate
                              in Supper. However, a State agency official stated that the SFA did not
                              request, nor did the State approve, offer versus serve for Supper.

18
     7 CFR 226.20 (3) Child and Adult Care Food Program
USDA/OIG-Audit/27010-0017-Ch                                                                        Page 19
Recommendation No. 14

                    Reconcile the discrepancy in understanding between the State agency and the
                    SFA of the minimum number of items in a reimbursable meal, which led to a
                    projected 11,223 meals (worth $24,578 in Federal funds) being overclaimed
                    on any given serving day.

                    Agency Response.

                    In its response, dated September 21, 2004, FNS agreed with our
                    recommendation and the State agency will issue a clarification letter to the
                    SFA no later than October 1, 2004, to reconcile any discrepancies in
                    understanding.

                    OIG Position.

                    We accept FNS’ management decision. For Final Action, FNS needs to
                    provide the OCFO with evidence of the State agency’s letter and date sent to
                    the SFA clarifying CACFP At-Risk After School Supper Program
                    requirements.

Recommendation No. 15

                    Require the State agency to ensure that the SFA amends its procedures for
                    Supper and that it correctly instructs its schools and personnel on what meal
                    components must be selected to constitute a reimbursable meal.

                    Agency Response.

                    In its response, dated September 21, 2004, FNS agreed with our
                    recommendation and the State agency will require the SFA to amend its
                    Supper program procedures on the number of components required for a
                    reimbursable meal. In addition, no later than December 31, 2004, the State
                    agency will require the SFA to disseminate and train its staff on the amended
                    procedures for the Supper program.

                    OIG Position.

                    We accept FNS’ management decision. For Final Action, FNS needs to
                    provide the OCFO with evidence of the amended Supper program procedures
                    and the training provided to the SFA’s staff.




USDA/OIG-Audit/27010-0017-Ch                                                             Page 20
Scope and Methodology
                    We performed our audit fieldwork during November 2003 at the FNS
                    Midwest Regional Office, during December 2003 at the State agency in
                    Illinois, and from January through June 2004 at the SFA in Chicago and
                    selected Chicago school sites. The Chicago Public Schools SFA is the
                    largest in Illinois.

                    We performed our review at the SFA and conducted site visits to
                    30 statistically selected schools that participated in the NSLP, the SBP,
                    and/or the CACFP At-Risk After-School Supper Program. These schools
                    were statistically selected based on which of the three meals they offered.
                    (See exhibits B and D.) We reviewed the SFA’s operations for SY 2004, but
                    we examined sanitation inspection results beginning in SY 2003.

                    The audit was conducted in accordance with Generally Accepted
                    Government Auditing Standards. To accomplish our objectives we:

                   •    Reviewed regulations, policies, and procedures governing the NSLP,
                        SBP, and After-School Supper Program;
                   •    Interviewed FNS regional and State agency officials to obtain an
                        overview of the NSLP operation in Illinois and identify any specific
                        concerns or program issues;
                   •    Reviewed the results of both the State agency’s recent administrative
                        reviews and A-133 Single Audit coverage to identify findings and
                        corrective actions promised;
                   •    Counted the number of free and reduced-price applications maintained at
                        30 statistically selected schools and determined whether meal counts
                        exceeded the total applications on hand;
                   •    Determined whether the SFA performed edit checks of its meal claiming
                        process and, after determining it did not, computed the regulatory edit
                        checks to identify the extent of overclaims, if any, for the months of
                        October 2003 through May 2004;
                   •    Evaluated the SFA’s on-site review and follow-up procedures for its
                        schools’ meal accountability systems (including application verification
                        processes) to determine whether internal controls were established,
                        functioning, and adequately reported;
                   •    Examined accounting records to ensure that the SFA’s internal controls
                        were sufficient to ensure proper use of program funds;
                   •    Reviewed and evaluated the Food Services Division’s purchases of
                        goods and services to ensure that its procurement practices followed
                        regulatory requirements, facilitated open and free competition, and
                        resulted in the best price;

USDA/OIG-Audit/27010-0017-Ch                                                            Page 21
                   •    Performed site visits to 30 of the SFA’s 598 claiming schools and
                        interviewed officials responsible for the NSLP, SBP, and/or After-
                        School Supper Program to determine compliance with regulations,
                        specifically whether adequate meal accountability systems (including
                        application verification processes) were in place; and
                   •    When Chicago’s Department of Streets and Sanitation issued over a
                        dozen cease and desist orders for hot meal service at SFA schools in
                        December 2003 and January 2004, we reviewed the SFA’s procedures
                        for evaluating food service sanitation at all schools.




USDA/OIG-Audit/27010-0017-Ch                                                        Page 22
Exhibit A - SUMMARY OF MONETARY RESULTS

  FINDING
               DESCRIPTION         AMOUNT              CATEGORY
  NUMBER
            SFA Meals Claimed In
                                                Questioned Costs:
     1      Excess Of Those         $695,335
                                                Recovery Recommended
            Allowable

            School Meals                     FTBPTBU – Management or
     1      Counted In Excess Of    $506,755 Operating Improvements /
            Those Allowable                  Savings

            At-Risk After-School
            Meals Claimed That                  Questioned Costs:
     6                               $24,578
            Did Not Meet Program                No Recovery
            Requirements

              TOTAL                $1,226,668




USDA/OIG-Audit/27010-0017-Ch                                            Page 23
Exhibit B - STATISTICAL SAMPLE DESIGN
                                                                                         Exhibit B - Page 1 of 2


                                 Food and Nutrition Service
                               National School Lunch Program
                                 School Breakfast Program
                          CACFP At-Risk After-School Supper Program
                                   Chicago Public Schools

    The general statistical sample design for this audit was a stratified simple random sampling
    scheme where schools participating in the National School Lunch Program (NSLP), School
    Breakfast Program (SBP), and CACFP At-Risk After-School Supper Program (Supper) in
    Chicago were selected from universe data acquired from the Chicago Public Schools. There
    were 598 schools in the NSLP Chicago schools universe. The 598 schools were stratified
    into 3 strata according to the different types of school food service in the Chicago Public
    Schools. This stratification resulted in the following strata:

                                    Meal Service                 Stratification
                          Lunch and/or Supper Only                      1
                          Breakfast and Lunch Only                      2
                          Breakfast, Lunch, and Supper                  3

      The following table gives the specifics of the stratification used in this sample design:

                                                     Number
                                  BOUNDARY
                  STRATA                               Of        Enrollment       n=30
                                  Meal Service
                                                     Schools
                                 Lunch and/or
                      1                                     18         9,051         5
                                    Supper
                                 Breakfast and
                      2                                   364       260,141
                                    Lunch                                           12
                                  Breakfast,
                      3           Lunch and               216       149,495         13
                                    Supper
                   TOTAL                                  598       418,687         30

    A sample size of 30 schools was selected. (See exhibit D.) The sample size of 30 was
    subjectively allocated to the individual strata (STRATA 1-3). The schools were selected
    with equal probability without replacement within each stratum. The sample unit within
    each stratum was a school. The table above contains the details for this allocation and
    sample selection. A 95 percent two-sided confidence level was used for all the statistical
    estimates in this review.


USDA/OIG-Audit/27010-0017-Ch                                                                         Page 24
Exhibit B - STATISTICAL SAMPLE DESIGN, continued
                                                                                      Exhibit B – Page 2 of 2


    Statistical Analysis

    All statistical sample design, selection, and statistical estimation were accomplished on a
    DELL Pentium Personal Computer using SAS and SUDAAN. The statistical estimates
    used for projections along with their standard errors were produced using the Windows
    version of SUDAAN, a software system that analyzes sample survey data gathered from
    complex multistage sample designs. SUDAAN was written by B.V. Shah of Research
    Triangle Institute, Research Triangle Park, North Carolina.

    The term sample precision (sp), as used in the report for estimating dollar values and
    number of occurrences is defined as
                                             sp    =    t * STDERR
                                                           PTEST
    where
              t - t factor for a 95 percent two-sided lower confidence level
              PTEST - point estimate (estimate of the total, mean, or number of occurrences)
              STDERR - standard error of the point estimate

    The sample precision for estimating percentage values is defined as

                                              sp     =      t * STDERR
    where
                     t - t factor for a 95 percent two-sided lower confidence level; and
                     STDERR – standard error of the point estimate (percentage value)

             Program Meals                           Lower 95%     Upper 95%
                                       Statistical                                 Sampling
              Overclaimed                            Confidence    Confidence
                                       Estimate                                    Precision
            On Any Given Day                           Level         Level

      Lunches (Point Estimate)           18,320           6,482      30,158          65%

      At-Risk After-School Suppers
                                         11,223           6,544      15,903          42%
      (Point Estimate)

      Dollar Effect (Reimbursement
      Rate of $2.19 per meal for all    $24,578          $14,331     $34,828         42%
      Suppers)




USDA/OIG-Audit/27010-0017-Ch                                                                      Page 25
Exhibit C - MEALS CLAIMED IN EXCESS OF THOSE ALLOWABLE

                                 EXCESS MEALS IDENTIFIED THROUGH
                                 EDIT CHECKS 1 AND 3 (See Finding No. 1)
                                       OCTOBER 2003 – MAY 2004
                                                                         (x)
              CATEGORY                NUMBER OF MEALS                                    = DOLLAR OVERCLAIM
                                                                        RATES

              Free                               142,223                 $2.19                    $311,468
      EDIT
     CHECK    Reduced-Price                       12,088                 $1.79                       21,638
      NO. 1   Paid                                71,826                 $0.21                       15,083
              October 2003 – January 2004                   226,137                                               $348,189
     Lunch
     Only19   February 2004 – May 2004 Subtotal              90,577                                               $180,402
                       Edit Check No. 1 Total               316,714                                               $528,591
              BREAKFAST
              Free                   7,168                               $1.20         $8,602
              Reduced-Price            394                               $0.90            355
      EDIT    Paid                   1,634         9,196                 $0.22            359        $9,316
     CHECK
      NO. 3   LUNCH
              Free                 151,783                               $2.19      $332,405
 Breakfast
   and        Reduced-Price          2,046                               $1.79          3,662
  Lunch
              Paid                 8,395         162,224                 $0.21          1,763     $337,830
              October 2003 – January 2004                   171,420                                               $347,146
              February 2004 – May 2004                      153,968                                               $326,353
                       Edit Check No. 3 Total               325,388                                               $673,499
              SFA’s Excess Meals Claimed
              Edit Check Nos. 1 and 3                       397,557               Federal Funds                   $695,335
              October 2003 – January 2004
              Excess Meals Counted by Schools
              Edit Check Nos. 1 and 3                       244,545               Federal Funds                   $506,755
              February 2004 – May 2004

                     TOTAL EXCESS MEALS                     642,102       TOTAL FEDERAL FUNDS                   $1,202,090




19
  Because student participation is dramatically less for breakfast than for lunch, breakfast claims did not reach the threshold
for edit check 1.
USDA/OIG-Audit/27010-0017-Ch                                                                                         Page 26
Exhibit D - BREAKFAST AND LUNCH COUNT COMPARISONS ON DAYS OF
OUR VISITS DURING FEBRUARY AND MARCH 2004

      SCHOOL                            BREAKFAST                                                  LUNCH
                                                         Percentage of                                               Percentage of
                  Eligible        No. of Meals            SFA Meals      Eligible        No. of Meals                 SFA Meals
          Unit    Meals           Over (Under) SFA Meals Over (Under)    Meals           Over (Under)   SFA Meals    Over (Under)
 No.     Number   Served            Counted     Counted    Counted       Served            Counted       Counted       Counted
  1      5710                 -              -          -            -       1,608                 30        1,638          1.83%
  2      6120                 -              -          -            -              54              3           57          5.26%
  3      7800                12              0         12            0         154                 -2          152          1.32%
  4      6470                 -              -          -            -         152                 47          199         23.62%
  5      7430                 -              -          -            -              41              0           41          0.00%
  6      3630           165                 -9       156        5.77%          780                 -2          778          0.26%
  7      4760           354                57        411       13.87%        1,210                 90        1,300          6.92%
  8      6960           212                -47       165       28.48%          502                -22          480          4.58%
  9      4500           333                25        358        6.98%        1,228                 21        1,249          1.68%
 10      4770           100                42        142       29.58%          895                  4          899          0.44%
 11      3470           135                17        152       11.18%          380                  5          385          1.30%
 12      2960           164                  4       168        2.38%          762                 67          829          8.08%
 13      1420           144                18        162       11.11%          822                  7          829          0.84%
 14      3780                50            35          85      41.18%          298                 30          328          9.15%
 15      1270                77             -3         74       4.05%          466                 -6          460          1.30%
 16      3190           210                62        272       22.79%          625                -10          615          1.63%
 17      5500                93              4         97       4.12%          235                  7          242          2.89%
 18      6380           180                  5       185        2.70%          351                158          509         31.04%
 19      3410           101                  4       105        3.81%          229                 17          246          6.91%
 20      6150           136                  7       143        4.90%          713                 -2          711          0.28%
 21      6000           149                 -2       147        1.36%          864                  8          872          0.92%
 22      6730                64             -1         63       1.59%          250                 40          290         13.79%
 23      6300           160                 -9       151        5.96%          312                 69          381         18.11%
 24      5760                65              9         74      12.16%          230                 61          291         20.96%
 25      5520           199                  5       204        2.45%          886                -17          869          1.96%
 26      2170           143                 -1       142        0.70%          761                 33          794          4.16%
 27      4650           203                -24       179       13.41%          957                  3          960          0.31%
 28      4830           210                -13       197        6.60%          275                137          412         33.25%
 29      7450                46              5         51       9.80%          155                -24          131         18.32%
 30      3920           198                32        230       13.91%          465                254          719         35.33%
         Totals       3,903               222       4,125   Net 5.39%       16,660              1,006       17,666     Net 5.70%




USDA/OIG-Audit/27010-0017-Ch                                                                                                 Page 27
Exhibit E -      AT-RISK AFTER-SCHOOL SUPPER COUNT COMPARISONS ON
DAYS OF OUR VISITS DURING FEBRUARY AND MARCH 2004


      SCHOOL                                               SUPPER
                                                    Number Of Meals Over
     Unit Number       Eligible Meals Served          (Under) Counted              SFA Meals Counted

        1270                                   0                             26                         26

        6380                                  99                             65                       164

        3410                                  47                             36                         83

        6150                                139                              020                         _


        6000                                158                              70                       228

        6730                                  30                             11                         41

        6300                                  87                             19                       106

        5760                                  40                             42                         82

        5520                                   0                             95                         95

        2170                                124                               4                       128

        4650                                  67                             68                       135

        4830                                   0                             56                         56

        7450                                   8                             35                         43

        3920                                  40                            127                       167

      TOTALS                                839                             654                      1493




20
  During this visit we followed the SFA’s definition of a reimbursable Supper (three items per meal). After discussions
with FNS and State agency officials, we determined that a reimbursable meal was one that contained all five items. We
then applied this new requirement to the remaining schools we visited that served Supper.
USDA/OIG-Audit/27010-0017-Ch                                                                                     Page 28
Exhibit F - FNS’ RESPONSE TO THE DRAFT REPORT
                                                Exhibit F - Page 1 of 6




USDA/OIG-Audit/27010-0017-Ch                                   Page 29
Exhibit F - FNS’ RESPONSE TO THE DRAFT REPORT
                                                Exhibit F - Page 2 of 6




USDA/OIG-Audit/27010-0017-Ch                                   Page 30
Exhibit F - FNS’ RESPONSE TO THE DRAFT REPORT
                                                Exhibit F - Page 3 of 6




USDA/OIG-Audit/27010-0017-Ch                                   Page 31
Exhibit F - FNS’ RESPONSE TO THE DRAFT REPORT
                                                Exhibit F - Page 4 of 6




USDA/OIG-Audit/27010-0017-Ch                                   Page 32
Exhibit F - FNS’ RESPONSE TO THE DRAFT REPORT
                                                Exhibit F - Page 5 of 6




USDA/OIG-Audit/27010-0017-Ch                                   Page 33
Exhibit F - FNS’ RESPONSE TO THE DRAFT REPORT
                                                Exhibit F - Page 6 of 6




USDA/OIG-Audit/27010-0017-Ch                                   Page 34
Informational copies of this report have been distributed to:

Agency Liaison Officer (3)
U.S. Government Accountability Office (1)
Office of Management and Budget (1)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division (1)
